OIG Investigative Reports,Tampa, FL. January 09, 2013 - Largo Woman Sentenced To 4 Years In Prison For Tax And Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT OF FLORIDA
NEWS
Largo Woman Sentenced To 4 Years In Prison For Tax And Student Loan Fraud
FOR IMMEDIATE RELEASE
January 09, 2014
Tampa, Florida  –  U.S. District Judge Virginia Covington today sentenced Katherine Rumph-Smith (44, Largo) to four years in federal prison for defrauding student financial aid and filing false claims with the Internal Revenue Service (IRS). The Court also ordered Rumph-Smith to make restitution to the IRS, in the amount of $110,971, and to the Federal Stafford Loan Program, in the amount of $22,350.
Rumph-Smith pleaded guilty on October 10, 2013.
According to court documents, Rumph-Smith had previously procured several student loans with outstanding balances, then had the balances discharged due to a disability. In order to obtain further student loans, she submitted physician forms, with the physician's signature forged by her, saying that her condition had improved, and agreeing to repay her prior loan balances. Rumph-Smith then applied for additional student loans to attend Walden University, which she did not attend, and obtained over $27,000 in loans, from which a total of $22,350 was disbursed to her.
In connection with the IRS, Rumph-Smith created four fictitious Florida corporations and then filed corporate tax returns claiming over $500,000 in refundable tax credits on behalf of the corporations. Also, she opened bank accounts in the names of the corporations, where refunds from the fraudulent corporate tax returns were directly deposited. She used these funds for personal expenses and admitted that these corporations were created solely for the purpose of filing false corporate tax returns and were not operational in any manner whatsoever.
This case was investigated by the Internal Revenue Service – Criminal Investigation and the U.S. Department of Education – Office of Inspector General. It was being prosecuted by Assistant United States Attorneys Kelley C. Howard-Allen and Sara Sweeney.
###
Top
Printable view
Last Modified: 01/13/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov